                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

TO: AIGI       File Number: I91050013                                          Date: 04 March 2002

Subject: Closeout Memo                                                                    Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject1was alleged to have violated federal conflict of interests
      regulations. The subject was provided a memorandum of counseling and this case was closed.




     rn
                Prepared by:                     Cleared by:
               Agent:          Attorney:       Supervisor:     AIGI
   Name:



 Signature &
    date:
